<html>
<title> - HUMAN RIGHTS CONCERNS IN SRI LANKA</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]




                   HUMAN RIGHTS CONCERNS IN SRI LANKA

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON AFRICA, GLOBAL HEALTH,
                        GLOBAL HUMAN RIGHTS, AND
                      INTERNATIONAL ORGANIZATIONS

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 20, 2018

                               __________

                           Serial No. 115-144

                               __________

        Printed for the use of the Committee on Foreign Affairs





[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






Available: http://www.foreignaffairs.house.gov/, http://docs.house.gov, 

                      or http://www.gpo.gov/fdsys/
                                   ______
		 
                     U.S. GOVERNMENT PUBLISHING OFFICE 
		 
30-498 PDF                WASHINGTON : 2018                 






























                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM R. KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID N. CICILLINE, Rhode Island
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                LOIS FRANKEL, Florida
SCOTT PERRY, Pennsylvania            TULSI GABBARD, Hawaii
RON DeSANTIS, Florida                JOAQUIN CASTRO, Texas
MARK MEADOWS, North Carolina         ROBIN L. KELLY, Illinois
TED S. YOHO, Florida                 BRENDAN F. BOYLE, Pennsylvania
ADAM KINZINGER, Illinois             DINA TITUS, Nevada
LEE M. ZELDIN, New York              NORMA J. TORRES, California
DANIEL M. DONOVAN, Jr., New York     BRADLEY SCOTT SCHNEIDER, Illinois
F. JAMES SENSENBRENNER, Jr.,         THOMAS R. SUOZZI, New York
    Wisconsin                        ADRIANO ESPAILLAT, New York
ANN WAGNER, Missouri                 TED LIEU, California
BRIAN J. MAST, Florida
FRANCIS ROONEY, Florida
BRIAN K. FITZPATRICK, Pennsylvania
THOMAS A. GARRETT, Jr., Virginia
JOHN R. CURTIS, Utah

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

    Subcommittee on Africa, Global Health, Global Human Rights, and 
                      International Organizations

               CHRISTOPHER H. SMITH, New Jersey, Chairman
MARK MEADOWS, North Carolina         KAREN BASS, California
DANIEL M. DONOVAN, Jr., New York     AMI BERA, California
F. JAMES SENSENBRENNER, Jr.,         JOAQUIN CASTRO, Texas
    Wisconsin                        THOMAS R. SUOZZI, New York
THOMAS A. GARRETT, Jr., Virginia
































                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Mr. J.S. Tissainayagam, journalist and human rights advocate.....     4
Michael Jerryson, Ph.D., associate professor of religious 
  studies, Youngstown State University...........................    12
Mr. David M. Crane, principal, Justice Consultancy International, 
  LLC............................................................    20
Mr. John Sifton, Asia advocacy director, Human Rights Watch......    25

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Mr. J.S. Tissainayagam: Prepared statement.......................     6
Michael Jerryson, Ph.D.: Prepared statement......................    15
Mr. David M. Crane: Prepared statement...........................    22
Mr. John Sifton: Prepared statement..............................    27

                                APPENDIX

Hearing notice...................................................    50
Hearing minutes..................................................    51
The Honorable Christopher H. Smith, a Representative in Congress 
  from the State of New Jersey, and chairman, Subcommittee on 
  Africa, Global Health, Global Human Rights, and International 
  Organizations:
  Statement by Amnesty International USA.........................    52
  Sri Lanka Monitoring and Accountability Panel Written Statement    56
Questions submitted to the witnesses for the record by the 
  Honorable F. James Sensenbrenner, Jr., a Representative in 
  Congress from the State of Wisconsin...........................    59 
 
                   HUMAN RIGHTS CONCERNS IN SRI LANKA

                              ----------                              


                        WEDNESDAY, JUNE 20, 2018

                       House of Representatives,

                 Subcommittee on Africa, Global Health,

         Global Human Rights, and International Organizations,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 2:30 p.m., in 
room 2200 Rayburn House Office Building, Hon. Christopher H. 
Smith (chairman of the subcommittee) presiding.
    Mr. Smith. The subcommittee will come to order, and good 
afternoon to everyone.
    The Sri Lankan civil war ended almost 10 years ago this 
May. The 25-year war cost an estimated 100,000 lives and 
displaced hundreds of thousands more.
    The civil war was a brutal ethnic conflict between the 
majority Sinhalese and minority Tamils. Both sides--the Sri 
Lankan armed forces and the rebel Tamil Tigers--have been 
credibly accused of unimaginable war crimes.
    To this day, justice for many of the victims remains 
elusive. Although many observers hoped that the reformist 
government of President Sirisena would increase access to 
justice, focus on human rights, emphasize transparency and 
accountability, and improve the rule of law, his administration 
has been criticized for having an inadequate response.
    Despite having run on a platform of ethnic reconciliation, 
President Sirisena has done little to amend the ties between 
the groups and the political polarization has increased among 
both ethnic groups.
    As one of our experts today, J. S. Tissainayagam, will 
attest, there has been no progress on holding those responsible 
for war crimes to account, and he will describe forced 
disappearances of Tamils and torture that were endemic during 
the war.
    Much of this was facilitated by the draconian Prevention of 
Terrorism Act, or the PTA. The PTA has yet to be repealed and 
is still in use by the government and security forces.
    Whereas most Tamils nowadays simply desire some semblance 
of self-government and federalism, their areas in the north and 
eastern part of the island are increasingly militarized.
    A concerning development in Sri Lanka is the resurgence of 
Sinhalese Buddhist nationalism. As one of our expert witnesses, 
Dr. Michael Jerryson, will describe, this particularly virulent 
strand of nationalism preaches exclusion of other ethnic and 
religious minorities with Buddhist fundamentalists in groups 
such as the BBS saying this is not a multi-religious country--
this is a Sinhalese country.
    What are the minority groups such as the predominantly 
Hindu Tamils then, or the Muslims who constitute a distinct 
minority, or the Christians, who could either be Sinhalese or 
Tamil?
    If the character of Sri Lanka is solely Buddhist and 
Sinhala, there is little room for these ethnic and religious 
minorities to thrive, and reconciliation will remain a far off 
goal.
    Unfortunately, the trend is heading in the opposite 
direction. In local elections in February of this year, a 
newly-formed Buddhist nationalist party gained 45 percent of 
the vote, beating the government coalition combined.
    Furthermore, in March of this year, Sinhalese mobs engaged 
in an anti-Muslim pogrom after a local dispute forcing the 
President to declare a state of emergency.
    Sri Lanka's stability is of critical importance to the 
United States national interests. Strategically located in the 
sea lanes, linking the Persian Gulf to east Asia, this island 
nation has seen a spike in recent activity by the Chinese.
    China's strategy globally is one of indenting countries and 
binding them in servitude so it can extract resources. So it is 
safe to say that Beijing's initiatives will not emphasize 
ethnic reconciliation and/or human rights.
    This presents the United States with an opportunity to 
stand up for justice and the rule of law and to oppose China's 
malign influence.
    After a brutal war that cost an unconscionable loss of 
life, we must do better to help Sri Lanka get on the right page 
again. The country has promise and the people deserve better.
    Once all sides recognize this, this island nation will 
finally have some semblance of peace.
    I'd like to now introduce our distinguished witnesses, 
beginning first with J. S. Tissainayagam, who was an English 
language journalist in Sri Lanka for over 20 years. In 2008, he 
was arrested for writing critically against the Sri Lankan 
Government and sentenced to 20 years imprisonment.
    Tortured and imprisoned for 675 days, he was released due 
to an international outcry against his unjust imprisonment. He 
now lives in the United States.
    He was a Nieman Fellow at Harvard and a Reagan fellow at 
the National Endowment for Democracy. Named a prisoner of 
conscience by Amnesty International, he was awarded the 
International Press Freedom Award by the Committee to Protect 
Journalists in 2009, the Peter Mackler Award for courageous and 
ethical journalism in 2009 as well, and the British Press 
Freedom Award, foreign journalist of the year, in 2010.
    He now contributes to Foreign Policy Magazine and Asian 
Correspondent, among other publications. We welcome him to the 
subcommittee and eagerly await his testimony.
    We will then hear from Dr. Michael Jerryson, who is a 
professor of religious studies at Youngstown State University. 
An expert on religious conflict, he is the co-founder and co-
chair of the Comparative Approaches to Religion and Violence 
through the American Academy of Religion.
    Dr. Jerryson has studied and written on Buddhist 
fundamentalism extensively, his latest publication, ``If You 
Meet the Buddha on the Road: Buddhism, Politics, and 
Violence.''
    Dr. Jerryson is also a former Peace Corps volunteer in 
Mongolia. We welcome him to the subcommittee and, again, look 
forward to his insights.
    Finally, we will hear from Professor Crane, who is a 
professor of practice at Syracuse University, School College of 
Law.
    From 2002 to 2005, Professor Crane was the founding chief 
prosecutor of the Special Court for Sierra Leone, an 
international war crimes tribunal appointed to that position by 
Secretary General of the U.N. Kofi Annan.
    Serving with the rank of Undersecretary General, Professor 
Crane's mandate was to prosecute those who bore the greatest 
responsibility of the war crimes, crimes against humanity, and 
other serious violations of international human rights 
committed during Sierra Leone's civil war in the 1990s.
    An expert on international criminal law, international 
humanitarian law, and national security, he founded Impunity 
Watch--a law review and public service blog--he has briefed the 
Foreign Affairs Committee several times before, notably in 2014 
with the Syrian army defector Caesar--an alias, of course--on 
war crimes committed by the Assad regime.
    He's also been a frequent provider of insight and testimony 
to this subcommittee, especially on the importance of 
establishing ad-hoc tribunals like the one that he so nobly 
led.
    I would point out parenthetically that the prosecutions 
that he led to Charles Taylor, the President of Liberia, 
getting 50 years--sentenced to 50 years at the Hague for his 
horrific crimes, and that would not have been possible without 
David Crane's leadership.
    So just very grateful for that leadership.
    Then we will hear from John Sifton, who I understand is 
stuck in some traffic and will be here momentarily--serves as 
an advocacy director at Human Rights Watch. He works on South 
and Southeast Asia, East Asia, the Middle East, and East 
Africa.
    John Sifton began working at Human Rights Watch in 2001, 
first as a researcher in the Asia division, focusing on 
Afghanistan and Pakistan, and then as a senior researcher on 
terrorism and counter terrorism.
    He also founded a public interest investigation firm, One 
World Research, which he directed from--right on cue--he 
directed from 2007 to 2010.
    In 2000 and 2001, Mr. Sifton worked for the International 
Rescue Committee, primarily in Afghanistan and Pakistan, and in 
1999 he worked for the refugee advocacy organization in Albania 
and Kosova. We welcome him and, again, look forward to his 
remarks as well.
    Mr. Tissainayagam, the floor is yours.

   STATEMENT OF MR. J.S. TISSAINAYAGAM, JOURNALIST AND HUMAN 
                        RIGHTS ADVOCATE

    Mr. Tissainayagam. I wish to thank Chairman Chris Smith, 
Ranking Member Karen Bass, and other members of the 
subcommittee for hosting this hearing on Sri Lanka this 
afternoon.
    My remarks are a summary of the written statements 
submitted to the subcommittee and I request that my full 
statement be entered into the record.
    Mr. Smith. Without objection, so ordered, and that would be 
for everyone on the panel, and any extraneous material you'd 
like to include as well will be made a part of the record.
    Mr. Tissainayagam. Thank you.
    The Sri Lankan Government and the rebel LTTE were accused 
of war crimes and crimes against humanity at the end of the 
civil war in 2009.
    The best starting point to address the current human rights 
situation in Sri Lanka is by discussing what the present 
government pledged to the U.S. and the international community.
    The present government was formed in January 2015 after the 
election defeat of authoritarian President Mahinda Rajapaksa.
    In September 2015, it accepted human rights violations had 
occurred during the civil war. It proposed four transitional 
justice mechanisms to provide justice and lasting peace, which 
were incorporated into the U.N. Human Rights Council Resolution 
30/1.
    This resolution was co-sponsored by the United States and 
Sri Lanka. Then Secretary of State John Kerry placed a seal of 
approval on this agreement by declaring, and I quote, ``This 
resolution marks an important step toward a credible 
transitional justice process owned by Sri Lankans and with the 
support and involvement of the international community.''
    However, progress on the promises made have been dismal. 
The U.N. High Commissioner for Human Rights, Zeid Al-Hussein, 
said in March this year, and I quote, ``I regret the absence of 
meaningful progress. It is urgent for the sake of the victims 
that progress be made on accountability and transitional 
justice.''
    Let me elaborate on enforced disappearances where, while 
setting up structures, Sri Lanka has failed to build trust 
among its people.
    Out of the four transitional justice mechanisms that Sri 
Lanka promised, only the Office of Missing Persons, or OMP, has 
been established.
    However, by doing so, Sri Lanka has decided to ignore the 
most affected people--the families of the disappeared.
    The stated needs of families of the disappeared in the 
north are simple. One, they want to develop the role of the 
state agencies, the LTTE rebels, and paramilitary groups 
acknowledge in the disappearance of their family members.
    Two, they want justice, and three, they want to determine 
what that justice would be. The OMP does not serve those needs. 
It cannot try perpetrators and only under very limited 
circumstances can it refer cases to law enforcement 
authorities. It is because of the government's unresponsiveness 
that many of the families of the disappeared want to boycott 
the OMP.
    For families of the disappeared, the most egregious form of 
enforced disappearances is the fate of their loved ones whom 
they handed over to the military at the end of the war in 2009 
and never saw again.
    As one mother, Ms. Pushpambal, said last week while 
protesting the OMP, and I quote, ``We are not here to speak 
about the missing. We are here to speak about our children who 
we took by the hand and gave to your military.''
    Since February 2017, family members of Sri Lanka's north 
have been protesting every day, hoping their government will 
hear them.
    Finally, when President Sirisena met them, the families 
asked for the list of those who had been handed over to the 
military. The President promised to give them a list in 2 days, 
but defaulted.
    After a final meeting, Ms. Yogarasa Kankaranjini, whose son 
was disappeared, said, and I quote, ``Today, we lost faith in 
this government. But we will continue our unrelenting struggle 
for our loved ones.''
    Finally, I would like to say--I would like to briefly touch 
on the issue of torture in Sri Lanka.
    Torture has continued even after the new government took 
office in 2015. The U.N. special rapporteur on conflict 
resolution and human rights, Ben Emmerson, said after his visit 
to Sri Lanka in 2017, and I quote, ``Eighty percent of suspects 
arrested under the flawed antiterrorist legislation in late 
2016 had reported torture.''
    U.K.-based organizations have documented several cases of 
torture in 2016 and 2017, and their reports are available to 
this committee.
    Studies have shown that impunity for perpetrators of past 
crimes and continuing human rights violations are risk factors 
to trigger future atrocities.
    An example in Sri Lanka was the violence against Muslims in 
February this year. Sections of the police and STF, who have 
been accused of torture in the past, abetted ferocious Singhala 
Buddhist mobs who were attacking Muslims.
    While the future of Sri Lanka looks grim at this point, all 
is not lost. There is a silver lining. The affected citizens 
are doing their best to hold their government accountable.
    But they need the support of the United States to ensure 
their government keeps its promises made to them.
    The United States remains well placed to use its good 
offices to persuade the Sri Lanka Government to abandon its 
policy to protecting the military and the time for the U.S. to 
act is now.
    Recommendations: One, use the Global Magnitsky Act to 
sanction individuals accused of wartime atrocities; two, use 
the power of appropriations to ensure human rights violations 
end and hold Sri Lanka accountable; and three, use 
congressional oversight to see that the Leahy laws stringently 
vets individuals and military units in war and wartime 
atrocities, and ensure that U.S. tax dollars are not used for 
training those units in the U.S., in Sri Lanka, or in a third 
country.
    Thank you.
    [The prepared statement of Mr. Tissainayagam follows:]


   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
     
                              ----------                              

    Mr. Smith. Thank you so very much for your testimony.
    I'd now ask Dr. Jerryson, if you would proceed.

 STATEMENT OF MICHAEL JERRYSON, PH.D., ASSOCIATE PROFESSOR OF 
         RELIGIOUS STUDIES, YOUNGSTOWN STATE UNIVERSITY

    Mr. Jerryson. I would like to thank the chairman Smith and 
the distinct members of the committee.
    The task I was asked was to identify how we could avoid the 
escalation--elevation of violence in Sri Lanka.
    As a scholar of religion and violence, my goal is not to 
make prescriptive claims about a religion but to examine it on 
the ground.
    I want to also alert that I have been targeted by both 
Buddhist and Muslim groups in the past and my life is in 
jeopardy of this. So I have no leanings one way or another in 
this--these reflections.
    Religion has a powerful impact in the way people see 
things. It creates a world view, a way of how we see what's 
right and wrong, what we should do, and oftentimes it can 
override human rights concerns, and I believe it's been 
happening in Sri Lanka for quite some time.
    I won't read the entire submission I have. I would like to 
read some excerpts of it. As has been mentioned before, the 
Buddhist's nationalist rhetoric has been wedded to violence 
during the Sri Lankan civil war and its aftermath.
    The role of Sinhala Buddhism in the recent anti-Muslim 
violence suggests that this dominance has a pattern of harmful 
effects on Sri Lanka's minority communities.
    And let me add also that dominance doesn't simply affect 
adversely those who don't have a lot of power but also those 
who do have power in both harmful and beneficial ways.
    National economic and political instability makes visible 
the systemic inequality. It also inflames tensions. This 
religious-ethno stratification engenders a society easily 
unmoored by ethno religious conflict.
    The recent violence in February and March of this year, 
which began when four Muslims attacked a Buddhist driver, is 
but a recent example.
    Sri Lankan society is also vulnerable to ethnical rhetoric, 
and we've seen a new surge of this arise with social media and 
Facebook posts that seem to inflame this.
    After Buddhist propaganda on Muslim halal conspiracies, the 
imminent Islamification of Sri Lanka, tag lines such as calling 
Muslims gonibilla, which interestingly is, in Sri Lanka, means 
monsters, widespread riots have taken place.
    The power behind propaganda are the Sri Lankan Buddhist 
monks. The more public and vocal conservative monks have stoked 
Sri Lankan fears and angers of minority and marginalized 
identities.
    This behavior is distinctly modern. Prior to British 
colonialism, Buddhist monks legitimated Sri Lanka's 
governments. However, they did not directly participate in any 
political system.
    This historical role explains the Sri Lankan Buddhist 
monk's symbol as society's moral foundational and they are so 
looked upon in this way.
    So when Buddhist monks speak out publicly, they do so not 
only as holy voices, but also as political moral authorities. 
We have seen a rise in Buddhist monastic political 
participation.
    Monks in mass became active during the 26-year civil war. 
In 2004, British monks formed the Jathika Hela Urumaya, the 
JHU--the National Heritage Party. Their political candidates 
were Buddhist monks. Nine of them won seats in Parliament.
    As you mentioned before, Chairman, this has been even on a 
rise this year.
    Now, while some Sri Lankan monks have called on more 
pluralistic policies and rhetoric, there has been a political 
consolidation of conservatism among such as the JHU.
    In its inaugural year of activity, the JHU called on the 
extermination of the LTTE. They did not want to have any 
negotiations.
    Shortly after the civil war, two Buddhist monks broke off 
from the JHU and formed a new organization called the Bodu Bala 
Sena--the Buddhist Power Force--and within a year the Bodu Bala 
Sena shifted the rhetoric from the Tamils to Muslims as a 
threat to the entire country.
    When I interviewed founders of the Bodu Bala Sena, it had 
been only 2 weeks since the co-founder, Gnanasara Thero, had 
delivered an emotional intense speech that triggered Buddhist 
riots and attacks in Aluthgama.
    His colleague, Dilanthe, explained the Bodu Bala Sena's 
reasons for the fears of Muslims, saying, ``We want Sinhalese 
united in a Sinhalese government. We want protection. We have 
been protecting Theravada Buddhism for the last 2,300 years, 
and today, Theravada Buddhism is in the West and with the 
Sinhalese. But the Singhala race may be around only for the 
next 40 years,'' and it's a repeated rhetoric--the idea, the 
fear, that they're going to be obliterated. The Sinhalese will 
be obliterated and true Buddhism will be obliterated in the 
process.
    Now, for Dilanthe, the Sinhalese Buddhists may enjoy a 69 
percent majority, compared to the 8 percent Muslim minority. 
But Sri Lankan Buddhism is a global minority, in their views.
    He and his organization consider their efforts to defend 
Sri Lankan Buddhism necessary for its very survival.
    Now, the Sri Lankan Government has taken very little action 
against the Bodu Bala Sena. However, last week, the Sri Lankan 
Government jailed Gnanasara Thero, citing violence against 
Muslims--for him inciting violence against them.
    Reuters journalist Ranga Sirilal reports that Gnanasara 
Thero told reporters as he boarded the bus to take him to 
prison, ``I have done my duty toward this country. Why should I 
regret?''
    So conservative Buddhist monastics such as Gnanasara Thero 
and Bodu Bala Sena see themselves as true to Sri Lanka because 
of protecting Sinhala Buddhism at the expense of minorities, 
ethnic and religious.
    Their decisions require a heightened level of 
accountability. My recommendations are as follows.
    Recent human rights abuses in Sri Lanka are a result of a 
larger and more historic, systematic, ethno religious problem.
    To reduce the potential for it devolving into another 
period of civil strife, I recommend the U.S. Congress support 
the Sri Lankan Government to increase efforts to identify its 
democratic processes of pluralism, to commission a neutral 
parties comprehensive review of the public education materials 
from the national to the local for any ethno religious biases, 
and, as Buddhist monastics become more political, to encourage 
the government to support the judicial branch in policing their 
actions.
    Thank you.
    [The prepared statement of Mr. Jerryson follows:]
  
  
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Smith. Thank you very much.
    I would like to now recognize Professor Crane.

STATEMENT OF MR. DAVID M. CRANE, PRINCIPAL, JUSTICE CONSULTANCY 
                       INTERNATIONAL, LLC

    Mr. Crane. Thank you, Chairman Smith. It's, again, my 
pleasure to be in front of you and the distinguished committee 
that you chair, along with all the members who we have worked 
together for almost two decades, bringing justice to the 
oppressed.
    I have submitted my comments and so you have put them in 
the record. I will not go through those. I would just like to 
make a few important points, particularly related to justice 
and the involvement of Congress and the United States, related 
to the tragedy that took place for--between 1983 and 2009.
    Like my colleague here, I approach this with nothing more 
than neutrality. I have been doing this for almost 40 years as 
far as advising and investigating and prosecuting those who 
commit mass atrocities.
    The conflict that took place--we've seen law of armed 
conflict violations, war crimes, crimes against humanity, 
committed on all sides.
    That's a given. We can talk about that in further 
questioning. But let's just use as a baseline that all parties 
committed violations of both domestic and international law.
    International efforts to try to bring the parties together 
have been, largely, neutral at best and a failure most of the 
time, and that is because of the long term challenges that go 
with long term guerrilla conflict.
    Sri Lanka will never be at peace--a sustainable peace--
unless these is both truth and justice through some type of 
truth commission reconciliation as well as some type of justice 
mechanism, either domestically, regionally, or internationally.
    In my mind, with all of this experience and have studied 
and worked with and dealt with on a practical level these types 
of issues, the short and medium term outlook for any type of 
truth or justice is bleak, at best.
    I see little to no U.S. ability to influence any of the 
parties to bring them to the table to talk in a constructive 
and just like way.
    Perhaps in the long term there may be some political 
openings and sunlight that will appear on this beautiful land, 
which I have walked for many weeks, particularly exploring 
the--and visiting all the battlefields of that last 4 months in 
2009 as a member of a panel of experts looking into potential 
war crimes and crimes against humanity.
    My suggestion would be this, Mr. Chairman, in conclusion, 
is that your committee--the committee headed by Chairman Royce 
and Congress at writ large, as well as the U.S. Government, to 
first show empathy--a recognition of the pain on all sides.
    If we lock ourselves into narrative on either side, then we 
are starting off on the wrong foot. I would also encourage 
engagement.
    Despite the challenges that we currently have as a nation 
that seems to be pulling away from the very fundamentals that's 
established this country, particularly in the human rights 
realm, which we have led for so many years, we still need to be 
engaged with Sri Lanka at all levels, both economically, 
socially, culturally, politically, and practically, and engage 
all parties.
    We also should be encouraging to ensure that dialogue takes 
place both at the local, regional, and international efforts to 
move parities in a way or to a realization that the only real 
future for this war-torn land is through compromise, 
discussion, and accountability.
    And then, of course, I concur with my colleague at the end 
of the table. The real ability of the United States to draw 
attention is economic persuasion, both soft and hard 
persuasion.
    We do have some influence. They're interested in our 
business. But that business comes with some type of quid pro 
quo.
    So that will conclude my remarks and I look forward to your 
questioning, sir.
    [The prepared statement of Mr. Crane follows:]


 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
         
                              ----------                              

    Mr. Smith. Thank you very much, Professor Crane.
    John Sifton.

  STATEMENT OF MR. JOHN SIFTON, ASIA ADVOCACY DIRECTOR, HUMAN 
                          RIGHTS WATCH

    Mr. Sifton. Thank you. Thank you for providing Human Rights 
Watch the opportunity to testify also.
    More than 9 years after the conflict, the people of Sri 
Lanka are still struggling to rebuild their country's 
democratic institutions but also obtain justice for the crimes 
that were committed during the conflict.
    It's only after President Sirisena was elected in 2015 that 
the government really began to take more seriously the work 
that needed to be done to address past abuses.
    But this came about because of intense pressure from 
minority Tamil and Muslim communities and local activists, but 
also from strong pressure from concerned countries including 
the U.S.
    The U.S. played a huge role in convincing the government to 
engage with the U.N. Human Rights Council, and I am going to 
talk about the Human Rights Council a little later.
    I think we've heard--you know, we all know that the LTTE 
committed horrific abuses during the conflict--sectarian 
massacres, political assassinations, executing detainees, using 
child soldiers--and as we documented, you know, terrorizing 
ethnic Tamils there and abroad to raise money for their 
operations.
    The Sri Lankan security forces, for their part, committed 
countless arbitrating tensions, extrajudicial killings, forced 
disappearances.
    But the abuses at the end of the war were, obviously, among 
the worst of all, and between indiscriminately showing 
civilians using human shields and killing rendered combatants 
and other Tamil men who surrendered at the war's end, it was a 
horrific time, and that's why there was so much pressure by the 
U.S. at the Human Rights Council.
    The two resolutions since 2015 setting up these four 
different mechanisms, a special court for alleged war crimes, 
reparations, office of missing persons, a truth and 
reconciliation--you know, those were great resolutions and it 
marked a huge progress.
    Unfortunately, as we've already heard, it's really only the 
Office of Missing Persons that's up and running and even their 
work has not really shown a lot of fruit.
    The reparations process has been very slow. There was a 
bill but, you know, it's still stalled out. But most worrying 
of all is that there's no progress that's really been made on 
creating a special court and both the President and the Prime 
Minister have all but said that there never will be a court, 
and that's a huge tragedy that I think they should be 
criticized for a lot.
    But this brings me to the issue of a human rights council. 
When we think about our recommendations, what needed to be done 
on this issue, obviously, U.S. is a big point of leverage and 
we urge Members of Congress and administration officials to 
keep pressuring that.
    But when I drafted my testimony, I had not yet watched 
Ambassador Haley's comments yesterday, withdrawing the U.S. 
from the Human Rights Council, and it really just changes 
everything that I was going to say.
    I also had not read the letter that Ambassador Haley sent 
to my organization and Amnesty International this morning 
specifically blaming us for their withdrawal, saying that we 
had sided with Russia and China to sabotage their efforts at 
reform.
    The response within Human Rights Watch this morning to that 
letter was shocking. This country, Sri Lanka, was among the 
ones we worked with U.S. the closest to create resolutions to 
address the country's human rights problems, and we found that 
letter to be not just an insult to us and our work, and our 
work together with U.S. officials but an insult to the people 
of Sri Lanka, to North Korea, to Burma, and other places where 
the U.S. have worked together.
    And so I hope one thing that can come out of this hearing 
is that Members of Congress can press Ambassador Haley on why 
she made the disastrous, shortsighted and, frankly, childish 
decision to withdraw from the Human Rights Council yesterday.
    Going forward, I think the U.S. could still use its role at 
the Council, even if it's not a member, to urge the next 
resolution in March 2019 to find fault with Sri Lanka and say 
what is going on here--you'd agreed to do these four things and 
you haven't done them.
    Unfortunately, if the U.S. is not going to be in Geneva to 
do that, it'll fall to other countries, and that is a terrible 
indictment of this administration's commitment to promoting 
human rights.
    I am sorry that this issue had to sideline, you know, the 
hearing about Sri Lanka. I would be glad to talk more about the 
Sri Lanka problems in particular. But I had to address this 
issue with the Human Rights Council.
    I have a written version of my testimony, which includes 
the World Report chapter from Human Rights Watch's 2018 world 
report on Sri Lanka and I would ask that it be entered into the 
record.
    [The prepared statement of Mr. Sifton follows:]
  
  
  
  
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
         
                              ----------                              

    Mr. Smith. Without objection, so ordered.
    Mr. Sifton. Thank you.
    Mr. Smith. Thank you, Mr. Sifton.
    Let me just begin.
    You know, the Office of Missing Persons, and Mr. 
Tissainayagam, you were very, very critical of that and pointed 
out that many of the families said that they will boycott the 
office missing persons set up to probe disappearances.
    If all of you, perhaps, could focus on the shortfalls, what 
needs to be done to fix it, and, again, what pressure might we 
bring. I mean, missing persons--I've held hearings.
    I've done site visits all over the world, even during the 
war in former Yugoslavia. The issue of missing persons was a 
huge--still is--a huge issue at the time.
    Our own POW MIAs in North Korea as well as in Vietnam was--
I mean, the first speech I gave on the floor of the House in 
1981 was about our missing in Vietnam that we did not get a 
full accounting for.
    It seems to me that regarding the brokenness of the 
families--asking for that basic information really needs to be 
pressed very hard. So if all of you could speak to that.
    Because, obviously, the families probably thought this 
would work and they have been disappointed.
    Mr. Tissainayagam. Thank you, Mr. Chairman.
    Let me start by saying a few words about the--what led to 
the OMP. As I said, it was one of the--one of the proposals 
made by the Sri Lanka Government. At the U.N. Human Rights 
Council meeting in 2015 in Geneva, basically, what the OMP was 
supposed to do was to look not only--was supposed to looking to 
the missing--into missing persons across the board, but 
particularly, it was supposed to look into disappearances.
    When--but when the--but when it started the whole process 
of setting it up--when that started, there were a lot of issues 
that came which led to what came out finally, being truncated 
or a crippled version of what it ought to have been.
    What the people--the families of the disappeared wanted was 
not only that the OMP would look into finding out the truth 
about the disappearances because in the case of many people, as 
I said, who had handed over their children and their loved ones 
to the military at the end of the war, they didn't need much 
information as to what happened to them. They saw their 
children be--or their husbands being handed over to the 
military and then they disappeared.
    What they wanted was justice. This does not preclude the 
fact that they didn't want to know what happened to them 
eventually, but that was only one of the issues.
    What they wanted was justice, and if you see the way the 
office of missing persons has been now established, the law 
establishing the OMP excludes justice--the office of missing 
persons the power to punish perpetrators.
    That is because Section 13 says that whatever arises from 
the investigations of the office of missing persons will not 
give rise to civil or criminal proceedings.
    Secondly, it says that they are--I mean, the whole law is a 
bit confused. It also says that if the OMP wants it can hand 
over some of the investigative material to a court of law.
    But, that again, there are caveats. It says that it is only 
if there is no social or other problems or problems to the 
nearest relatives arising from that.
    Now, just imagine if a military officer is accused of war 
crimes, and if that matter goes to court, you can be pretty 
sure from what Professor Jerryson described, that the whole 
Singhala Buddhist ethos being what is is, there is going to 
be--there is going to be chaos. So the OMP has the discretion 
not to put it forward to their court of law.
    Now, that is completely against what the people, especially 
the victims, want.
    So, therefore, while the victims do want to know what 
happened to their loved ones and that is assuming that the OMP 
at least does that function properly, one of the other things 
that they have been asking for is justice, which the structure 
and the character of the OMP will not allow it to provide.
    Thank you.
    Mr. Sifton. Just a brief word about the--it's pretty clear 
that out of the menu of the four things that have been proposed 
to the resolutions that the government, obviously, prefers 
things that are less likely to cause high-level officials to 
worry that they be held accountable.
    And so reparations and the office of missing persons has 
been more appetizing to the leadership as things that can be 
done that won't have that impact.
    And yet, not even these things appear to have been done. 
One warning sign is that a lot of families are now telling us 
that they won't accept reparations unless there's some progress 
made on justice or accountability or truth. They simply won't 
take the money. That may be a sign that, you know, this could 
boil over in coming weeks and months.
    The other warning sign is that the debate over 
accountability can have political ramifications. You know, 
among the people who may run for office in the next election is 
Gotabhaya Rajapaksa, who was Defense Minister at the time of 
the worst abuses in the war and also, incidentally, a U.S. 
citizen who's under investigation by the Justice Department for 
those alleged war crimes.
    He's been implicated. That's a huge political ramification 
right there in the sense that if he's held accountable that 
could lead him to engage and have more political support.
    If he's not held accountable, that, in turn, could provide 
a reason for why the ruling party may fail in the next election 
because the northern vote on which they were so dependent will 
not be delivered for them because of the profound 
disappointment in the government in not holding anybody 
accountable.
    Mr. Crane. Just one point. You know, the issue of justice, 
which all victims--and it's at the end of the day all about 
victims--what they want is truth and they want justice.
    They want to tell the world their story, what happened to 
them; whether it be before a small body like a truth commission 
or an international or a local court.
    But at the end of the day, particularly in Sri Lanka, but 
it's also proven to be in my practice in international criminal 
law for over two over decades, is that the bright red thread of 
all of this is politics.
    It will be a political decision someday that someone's 
going to say we've got to do something about this, and that 
time is not present. So we have to just understand that as a 
word of caution.
    When that happens, I have no idea. But it will be a 
political shift that will cause people to begin to move toward 
some of the--that four-cornered stool which the put in place in 
2015, 2016, which has all the possibilities.
    But the politics of it weaken that whole structure.
    Mr. Smith. Let me just ask you, Mr. Crane, after the civil 
war of the Sri Lankan Government put together the commission of 
inquiry with the intention of investigating both the Sri Lankan 
military and the Tamil Tigers, can you describe your role in 
that commission and, if you could, how effective has it been? 
How disappointing has it been?
    And you also suggested in your testimony that a court, 
similar to the one that you so effectively led in Sierra Leone 
be established in Sri Lanka.
    How realistic is that? Do you think that is something that 
could be achieved?
    Mr. Crane. Well, thank you for those questions, Mr. 
Chairman.
    Yes, I was on the panel. I was on the panel of experts with 
Sir Desmond De Silva and Sir Geoffrey Nice and myself, advising 
that initial commission looking at what the possibilities were 
related to war crimes and crimes against humanity took place.
    I was brought in in 2014 to advise that body, which we did. 
We found that as many of the inquiries have already found but 
unequivocally, neutrally, and with great depth, found that 
international and domestic crimes were replete.
    We focused particularly in a lot of the dust that was in 
the air related to those final 4 months, and the three of us, 
literally, walked that campaign all the way to the beach--last 
day of the conflict, for lack of a better term.
    At the end of the day, there are accountability on both 
sides. I could certainly go into my professional sense of this 
neutrally as to those 4 months.
    But at the end of the day, the commission--well, 
interesting enough, the President that had set that up, 
literally, 3 weeks after I left Sri Lanka was thrown out of 
office and just disappeared into a cloud.
    So at the end of the day, I would have to honestly say to 
you, Mr. Chairman, that really it just disappeared. There was 
no concrete ability to build from that.
    To answer your second question, yes, of course, when the 
political decision is made to do something, certainly, a hybrid 
international court such as Sierra Leone is certainly a 
possibility, and it's and encouragingly possibility because we 
could involve all parties, which is what the Sierra Leone court 
was.
    It was an international court but we also had members of 
the country in key and significant positions and judges, deputy 
prosecutor, deputy registrar, what have you.
    You know, the history of the Special Court for Sierra Leone 
shows that a hybrid international war crime tribunal works and 
can be done efficiently and effectively, and yes, certainly 
that is a possibility.
    You know, really, at the end of the day, the real 
possibilities here are either a internationalized domestic 
court--I just don't see a domestic court happening.
    Potentially, an internationalized domestic court or a 
hybrid international court of some sort with variations at a 
time yet to be determined when a political climate decision is 
made that that might be something that would be useful to the 
people of Sri Lanka.
    But, again, I have to underscore that it will be a 
political decision to do that.
    Mr. Smith. Yes.
    Mr. Jerryson. To add to this too--I applaud Professor Crane 
his suggestions.
    There's a lot of delicacy right now that remains at the 
Sirisena administration in that if they push too much one 
direction they're going to lose a lot of political support, 
with Rajapaksa waiting in the wing right now, who's been much 
more supportive of the Bodu Bala Sena and other groups beside 
the Bodu Bala Sena.
    This is going to be, I think, a very careful approach I 
think we should be aware of. The Bodu Bala Sena has been 
training young monastics since 2013. They have been trying to 
change the way people see what it means to be a Sinhala 
Buddhist--what does it mean to be a Sri Lankan.
    And in the end, I think it's going to be the long game, not 
the short game here.
    Mr. Tissainayagam. Thank you.
    While I agree with everyone here that politics will be a 
very important part in determining when this--a credible 
justice mechanism is going to be set up, I also feel that the 
Sri Lanka Government is using certain myths to push the fact 
that politics is not conducive to bring about a solution at 
this point of time.
    I am not saying that it can happen at this point of time, 
but I think it can be expedited. But that the Sri Lankan 
Government, by putting forward some of these myths is trying to 
delay it, for obvious reasons.
    Now, one of the main things that the Sri Lankan Government 
says, and I believe Professor Jerryson also referred to it, is 
about Gotabhaya Rajapaksa, who is the former Defense Secretary, 
and the general myth is that if he is arrested or if he is 
accused of anything there is going to be a huge outcry in the 
country and, more than that, that there is going to be a coup 
in the military.
    Now, this story has been there for about 2009. First and 
foremost, they said that Field Marshal Fonseca, who was at that 
time the--he's known as the butcher of the north because he led 
the military and he's accused of various war crimes--that 
anyone who touches him would end up killed or that they would--
or that they would be victimized by the regime--yeah, by the 
regime and by the Sinhalese people.
    But then he was arrested, he was put behind bars, and then 
he came back. The military did not--did not revolt.
    Then they said, if Gotabhaya Rajapaksa, who is the 
Secretary of Defense, if something happens to him that there 
would be a huge outcry and there would be a coup.
    Gotabhaya Rajapaksa comes and goes to courts very regularly 
because he is charged with various crimes, but they're not war 
crimes, but corruption issues, and the military has not 
erupted. They have not--there is no coup.
    Thirdly, there is--there is D.K.P Dasanayake, who is a 
Commodre--sorry, he's a naval officer. He's also a senior 
officer--but who has been implicated in the disappearance of 11 
people, and some of them are young kids.
    He, too, has been--he's now on bail. But he was arrested, 
and there was no outcry or no coup. It was no big deal.
    So while I agree with everyone here that politics will play 
a role in when this is going to be set up, I think the 
Government of Sri Lanka propagated this myth to push it as 
much--as much backwards as possible.
    Thank you.
    Mr. Smith. Yes.
    Professor.
    Mr. Crane. Thank you again for your time.
    As we were sitting here having this important discussion, 
things come to mind. You know, I've been sitting here thinking 
about this very intently for the past week and in my experience 
with working with the Government of Sri Lanka and others and 
meeting the President, all the way down to various individuals, 
I think what they're doing right here right now is a waiting 
game.
    They are--it's a slow roll. They'll give and take here and 
there to ease pressure. But they're looking at, over time, that 
the interest in accountability for Sri Lanka will wane because, 
again, the placement geopolitically of Sri Lanka itself puts it 
right in the middle of three major powers--particularly, India 
and China but also on and off interests by the United States 
and trying to develop and influence in that part of the world.
    And so they're banking on their--the other geopolitical 
aspects of where they are versus--and just weighing this out 
and seeing what the result will be.
    Adjusting as it goes, maybe they'll be forced to do 
something. But I think they're on a waiting game at this point, 
Mr. Chairman.
    Mr. Smith. If I could, Mr. Tissainayagam, you had focused 
on torture and the fact that the Prevention of Terrorism Act--
the draconian PTA--not only permitted arbitrary detention but 
allowed confessions that were admission through torture.
    I wonder if you could speak to why the government has not 
dismantled, eviscerated, done away with, repudiated this 
terrible law.
    Mr. Tissainayagam. Thank you. Well, I think the very simple 
answer is that they don't want to do that because it would take 
away a very important tool that the government has to punish 
people who they think are culpable or at least who have been 
charge on human rights--on various violations--but who can be 
charged as terrorists.
    One of the things that we have to understand is that from 
the time the PTA was made into law in 1979, not only were 
people who were charged who had--whose offenses were 
convincibly terrorist offenses, but even people who expressed 
dissent, people whose speech and whose actions should have been 
safeguarded and protected as legitimate, as only criticizing 
the government or the people in power, were made to look 
terrorist because the way the law is couched--the way the law 
is written is so broad that it includes almost anything as an 
act of terror.
    And once you do that, there are various things that you can 
use including confessions. Now, one of the things that--
including confessions, which is made admissible under the PTA 
to charge these people, and torture is related to that. In the 
case of many of the--many of the--many suspects who are taken 
in, usually what happens is that they are tortured.
    In fact, Ben Emmerson, as I said, said that 80 percent of 
the people who had been--who had been taken in between 2015 and 
2016 had complained of torture.
    Now, the problem here is that--this is a way of suppressing 
dissent and legitimate--people who are legitimately expressing 
something against the government.
    Now, I was a victim in that sense. I was a journalist, and 
I didn't go around carrying a gun or killing people. But I was 
charged under the Prevention of Terrorism Act, and I was jailed 
under the Prevention of Terrorism Act.
    I was arrested and jailed under the Prevention of Terrorism 
Act.
    So I think that is the main cause--how you can use this 
over broadly defined terrorism in the PTA to keep and 
discipline a society. That is why the government is keeping 
this and that is why it is also keeping torture, because you 
can torture people into making confessions which you can use.
    Thank you.
    Mr. Sifton. Just to direct the committee's attention to two 
facts. One is that the special rapporteur visited in July 2017 
and found that torture is continuing apace and routine. We 
issued a report about the PTA as well a few months ago in which 
we documented several major cases of torture of PTA detainees.
    But it's important to recognize not only have they failed 
to repeal it, these draft texts for new versions are even worse 
and they contain these broad definitions of political activity 
as terrorism, that are highly troubling.
    I think it's good to pivot here to talk about how the U.S. 
can voice its displeasure with this situation. If we are not 
going to have the human rights council as a vehicle anymore 
then the United States at least can use its Embassy to voice 
these concerns and its spending power through appropriations.
    I think it's a good opportunity that there's a new 
Ambassador coming in. We've worked with her very closely in 
Nepal and other places.
    I mean, not to say anything bad of the current Ambassador. 
Atul is a wonderful servant of the U.S. and we wish him well.
    But the next Ambassador, coming in like this, can bring a 
new approach--a little tougher and say to these--this 
government, look, we have a problem. There's a lot of 
restrictions on what we can do with you militarily--you know, 
our spending on law enforcement, counterterrorism, the Leahy 
law.
    A lot of this will be made better if you start reforming 
and if you show progress on human rights and accountability it 
will make it easier for Congress to approve funding for more 
and more things and we can have joint training. This addresses 
the issue of the sandwiching between China and India.
    Having been to PACOS and Honolulu, I can tell you that the 
Pacific Command looks at Sri Lanka with, you know--they're very 
appetizingly looking at Sri Lanka as a place where they want a 
closer military relationship. But they can't have it because of 
appropriations.
    This is something Ambassador can say to them and say it in 
sort of an offering way. We want to be closer to you but you 
need to help yourself by reforming.
    Mr. Smith. Let me just ask you--I was the prime sponsor of 
the Frank Wolf International Religious Freedom Act, which takes 
us further down the road of trying to hold designated persons 
lists, the use of sanctions, which are parallel to the Global 
Magnitsky Act--I was the House Sponsor of that.
    It did get passed into law by way of amendment, which was 
great, through the NDAA.
    And that is another tool that you mentioned, Mr. 
Tissainayagam, as something we ought to, in your list of 
recommendations.
    Is it time to really pull the trigger on those kinds of 
tools that are in the toolbox? Seems to me.
    Mr. Sifton. I wish it was. I wish I could say yes.
    The problem is that the current way in which the 
administration's State Department considers sanctions under 
Global Magnitsky requires that the abuses in question be 
somewhat recent, and so you would really have to focus on 
current bad actors in the last 3 to 5 years.
    You cannot really make a successful Magnitsky petition to 
the government about abuses that took place in 2009. It's 
intensely frustrating to us as a human rights group. But that's 
the reality that we are dealing with.
    Mr. Smith. Especially since the torture is ongoing.
    Mr. Sifton. That you could. If you identify Sri Lankan 
officials who are implicated in torture in the last 3 to 5 
years, by all means they should be recommended for sanctioning 
under----
    Mr. Smith. Is Human Rights Watch compiling lists of people 
that could be held accountable?
    Mr. Sifton. Sri Lanka is one of several countries that 
we've recommended.
    Mr. Smith. For those names--could you convey them to this 
subcommittee? That would be very helpful.
    Yes, Professor.
    Mr. Crane. Mr. Chairman, though I would--I certainly would 
love to see that kind of movement I helped in the Senate draft 
the Magnitsky Act.
    But the point is, is how far do we want to--how hard do we 
want to push right now?
    I agree with my colleague here we have new Ambassador 
coming in. If we push too hard, what ends up happening is 
nothing happens.
    Go ahead, they'll say do it, but then they'll turn to India 
or China, and we lose that important base. And, again, 
remember, just within a month the Department of Defense did 
something that it rarely does--change the name of a combatant 
command to the Pacific India Command, which shows you how 
important, from a geopolitical point of view they see this 
region.
    So it's a delicate dance. Yes, altruistically, that's t the 
way to go. But I think, practically speaking, we need to be 
able to show them that we could do this but there are other 
openings that might be able to allow us, because again, it's 
been my experience if you push the Sri Lankan Government in 
whatever the issue may be too hard, they will dig their heels 
in and throw the baby out with the bathwater. And so all of a 
sudden we had something and now all of sudden we have nothing.
    Mr. Smith. Before I go to one of my final questions, we are 
joined by a constituent of mine, Balan Akuga Palan, who is from 
Mercer County. He and his family are here today. I want to 
welcome them. Thank them for coming.
    Let me just ask you a couple final questions. The state of 
the media or lack of media freedom in Sri Lanka today--where is 
it today?
    Can journalists write openly and critically without the 
fear of that knock on the door in the middle of the night?
    And how do we address, or how are they addressing, the 
plight of religious and ethnic minority groups such as 
Christians?
    And before you go to your answers, just let me also point 
out that Tikuma is here. Tikuma is with Amnesty International. 
He spent over 5 years as a prisoner of conscience. So I want to 
thank him for his insights.
    He frequently testifies before this subcommittee. So I want 
to thank him for those insights which are very much valued.
    If you could speak to those issues--status of press freedom 
or lack of it, as well as the issue of other minority groups 
and how well or poorly they're treated.
    Mr. Tissainayagam. Thank you.
    Well, basically, when you look at Sri Lanka's performance 
with--as far as free press--as far as press or media freedom 
goes, generally, it has improved from what it was in 2009, and 
in fact from 2015.
    And when you look at the RSF's index, for instance, Sri 
Lanka has come from the 162nd position to 142. So when you look 
at it from that point of view, people can write, people can say 
what they want and stuff like that.
    But I think there is a very important think that we have to 
recognize. There are certain things that cannot be spoken about 
in the Sri Lankan media and one of those about things like war 
crimes and crimes against humanity and about disappearances and 
issues like that.
    So while there is much more freedom to write about general 
political issues, there is absolutely nothing, or I would say 
very little to speak--to have in-depth discussion on issues 
like war crimes, disappearances, torture, and stuff like that.
    Now, I think it's really important--I mean, people might 
say, okay, there is just one thing. I mean, you can speak about 
everything else.
    But I think it's fundamental. If Sri Lanka is to 
reconcile--if its groups are going to reconcile and come 
together that you have a situation where the media is free 
enough to be able to discuss and have conversations on this 
matter.
    So I think there are--the main issue that does not permit 
this is the Prevention of Terrorism Act. The PTA does not allow 
you to write. I mean, if you want to write something that is 
critical of the government, even today, especially something 
that is--that doesn't--something that the--on ethnic 
reconciliation and stuff like that, it is not permitted.
    So this is done in two ways. In the north and east, even 
yesterday, someone was covering something on the 
disappearances, was arrested--was harassed by the military, and 
this happens right along.
    So anyone who does anything about the military or--sorry, 
about the protests or about any sort of--or disappearances or 
anything like that--journalists can be harassed. They can be 
asked to give their names of their sources. Their photographic 
equipment has been taken away from them and stuff like that.
    In the south, it's different. While this happens--this 
happens, the other problem is that the government looks upon 
anybody who is Sinhalese--or most Sinhalese who are writing 
about the ethnic issue and asking uncomfortable questions, as 
traitors, you know, you are going against our government. And 
our government, which destroyed terrorism and killed off the 
LTTE.
    So that project does not allow some of the editors and 
journalists who want to write to write, and that, very 
importantly, creates self-censorship as far as the southern 
newspaper and media people are concerned.
    That's all. And also the other--the third thing is that a 
lot of--a lot of Web sites that speak about some of these 
issues are now blocked in Sri Lanka, 13, as of 2017 December. 
Thank you.
    Mr. Smith. Mr. Garrett.
    Mr. Garrett. I will yield for the time being. I will wait 
in reserve.
    Mr. Smith. Close to the end.
    If anyone would like to touch on the--how the Christians 
and other religious minority groups are being treated.
    Mr. Jerryson. I think we can look at the--I mean, there has 
been a rise in the persecution of Christians. They were--first 
off, the Tamils during the civil war were not just all Hindus. 
There were Christians as well that were persecuted during that 
time period.
    There's been an increase in persecution of Christians in 
Sri Lanka. Not to the extent that we see Muslims being 
persecuted. This is, I think, being a ripple effect throughout 
not just Sri Lanka but also in South Asia as a whole with India 
as well--the mobilization of Hindutva and, so yes.
    Mr. Smith. Is there anything else before we go to Mr. 
Garrett that any of you would like to add that we have not 
touched upon today, just so we have a complete comprehensive 
record?
    We do have a number of submissions for the record: A 
statement by Amnesty International USA and also a testimony 
from MAP. So without objection, those two testimonies will be 
made part of the record.
    Mr. Garrett. So I would speak briefly and begin with an 
apology for my tardiness, and I know that Mr. Sifton in 
particular has raised a number of concerns as it relates to the 
United States action with regards to the UNHRC.
    I would submit that membership in an entity who purports to 
espouse particular values as it relates to basic human rights 
and yet allows actors who are some of the most egregious 
violators of those values the positions and authority that the 
UNHRC has over the years almost undercuts the mission purported 
by the entity to begin with.
    I would also submit, at least in the opinion of this 
member, that advocacy on behalf of human rights of one group at 
the expense of human rights of another group also becomes self-
defeating.
    And so I certainly don't commend all actions as it relates 
to the United States with regard to the UNHRC. But I understand 
that perpetuating the idea that the UNHRC and the membership 
thereof is somehow worthy to pass judgment wherein member 
states like China, like Saudi Arabia, like Russia, like Cuba, 
and, in the past, Venezuela, whose human rights records are far 
from gleaming, again, undercuts the stated mission of the 
entity. So it's a little bit more complicated than I think 
perhaps it could be made.
    With that, again, my sincerest apologies and I thank the 
chairman for the time and would yield back, reserving.
    Mr. Smith. Thank you, Mr. Garrett.
    The chair recognizes my good friend from California, Brad 
Sherman.
    Mr. Sherman. Thank you, and I want to thank you for 
allowing me to participate. I am not a member of this 
subcommittee but I've been very involved in Sri Lanka as 
ranking member of the Asia Subcommittee, which had its own 
hearing, hence delaying me from being here.
    Although the war ended in 2009, Sri Lanka's northern and 
eastern provinces have an awful lot of property controlled by 
the ministry of defense, including an extensive portfolio of 
previously civilian properties, a number of businesses, and 
multiple hotels.
    Is it inappropriate for these civilian properties to remain 
under military control almost 10 years after the end of the 
conflict? And is the Sri Lankan Government taking steps to 
restore civilian control to these properties in the northern 
and eastern provinces?
    Mr. Tissainayagam. Thank you.
    Well, originally, these properties were taken over by the 
government, saying that this was for security and related 
reasons. This was during the war. And this happened over a 
period of about almost 30 years.
    The problem is that the war came to an end in 2009 and, to 
your question, there is no need for the Sri Lankan Government 
to hold on to all this amount of land.
    What the government says is that it needs this land to 
establish camps and control the security of the area. There are 
a couple of problems here.
    The first is what I referred to in my written--in my 
written statement about militarization. First and foremost, you 
don't need so many soldiers and military personnel in the north 
and east.
    According to some statistics that came out very recently, 
in a town called Mullaitivu, the ratio between soldiers to 
civilians is two to one. There are 130,000 people to 60,000 
soldiers.
    So first and foremost, we don't need so many soldiers there 
so you can close some of those camps. Coming down--coming back 
to the--coming to the land itself, there are two types of land 
that is being held.
    One is state-owned land and the other is private land. So 
while the government, under a lot of international and local 
pressure from human rights organizations and stuff like that, 
are giving back land, it is nowhere near what the people want 
because many of those people who are not--who want that land 
back, especially in the case of private owners, they are mostly 
in refugee camps. So you don't want to live as a refugee when 
the army is occupying your land.
    So while land is being given back, it is very slow and not 
in keeping with the demand of the rate at which people want 
that land to be given back. That is the first--that's a second 
issue.
    The third issue is that the government tells you, okay, 
right, we are giving you 20 acres, 100 acres, or whatever it 
is, and the people go and settle there.
    But then the next day the military comes and says, no, no, 
you can't--you can't--I mean, we said that, but there are land 
mines here or that for security reasons you can't go and live 
there. So those people go back.
    So even if there isn't--officially this land is given back, 
actually it is not. So in reality, those people continue to 
live in refugee camps.
    Mr. Sherman. I wonder if any of the other witnesses has a 
comment on that question.
    Mr. Crane.
    Mr. Tissainayagam. Thank you.
    Mr. Crane. Thank you, sir.
    Yes, I do, you know, and the international humanitarian 
laws are in conflict too to recognize property seizure in a 
general sense but there's got to be an appropriate and, in most 
cases, militarily necessary reason to seize that property.
    And even if that is done, particularly in situations like 
that, some type of compensatory arrangement is made. You know, 
Geneva IV deals with the laws of occupation and, of course, 
during conflict a party to the conflict can seize property for 
an appropriate reason.
    Initially, after the conflict ended, movement of military 
forces into that part of Sri Lanka was legal and probably 
appropriate.
    But what's over a period of 10 years now is that the 
militarily necessary reason for them to be doing that has 
waned, and now all this is is really just a visible reminder of 
raw power and the----
    Mr. Sherman. Does it produce a stream of income that goes 
directly to the military coffers?
    Mr. Crane. Congressman, I just don't know those facts so I 
would not comment on that.
    Mr. Sherman. That's--I don't know if Mr. Sifton----
    Mr. Sifton. The assumption is that that would not be a 
stretch of an assumption. But let's be clear about the laws at 
work. The conflict is not underway. There is no active state of 
armed conflict in Sri Lanka today.
    Mr. Sherman. It ended in 2009.
    This year's omnibus appropriations law conditions U.S. 
economic and security aid to Sri Lanka on its government 
meeting certain human rights benchmarks.
    Should we further condition our assistance to Sri Lanka on 
progress on human rights issues including accounting for 
missing persons and providing some degree of political autonomy 
to the Tamil minority?
    Mr. Sifton. In a perfect world, that's a recommendation 
that we would make. But, honestly, not necessary in the sense 
that the existing law already gives tools and ammunition to the 
incoming Ambassador and other U.S. officials to say to the Sri 
Lankan Government there's more that we could do if you started 
taking actions on----
    Mr. Sherman. That assumes that the executive branch and the 
legislative branch are agnostic as to which of them is 
controlling American policy. Would that the executive branch 
always take our advice, we wouldn't need to put provisions in 
the statute.
    I will ask any other witness whether you have a comment on 
whether it would be important for Congress to put such 
conditions into statute or should we be confident that the 
executive branch will use the tools that other statutes have 
given them and doesn't need to be told what to do on further 
statutes.
    Does any--yes, Mr. Crane.
    Mr. Crane. Yes. It's always a good thing to have 
legislation that highlights human rights and links it to moneys 
that would be benefit of a country that is maybe violating 
those human rights.
    I think it's a decision by both the legislative branch and 
the executive branches, and I had mentioned this to the 
chairman--how hard do we want to push at this moment?
    You would know as well as anybody in this room the Sri 
Lankans are very sensitive about this. If we go all out, we may 
lose everything. If we continue to engage quietly and encourage 
versus jam it down their throats, then that's exactly what's 
going to happen. They're going to gag and we are going to be 
back at ground zero.
    So that's not an answer but a caution.
    Mr. Sherman. And I would point out the one disadvantage we 
have as a legislative branch is when we want to influence the 
executive branch we can do that quietly, but when we want to 
control the executive branch it's in a public statute--which 
means that it's not subtle, and sometimes we should be subtle 
and sometimes we should be less than subtle.
    With that, I yield back.
    Mr. Smith. Thank you.
    Let me just ask one final question, if I could, and the 
question is to you.
    Oh, go ahead.
    Mr. Jerryson. Just one thing to note. If you're going to 
put anything into the statutes about the Tamil minorities, 
please also include Muslims as well. Many of them do not 
identify as Tamil and they're also being persecuted at this 
time.
    Mr. Smith. If you could elaborate--you noted in your 
testimony that you interviewed the founders of the BBS in the 
summer of 2014, only 2 weeks before Gnanasara Thero gave a 
speech that triggered Buddhist riots and attacks on Muslims.
    Could you elaborate on this seemingly escalating threat of 
this extremism?
    Mr. Jerryson. Absolutely, Chairman. Just to be clear, do 
you want me to reflect more on the meeting or on the current 
escalating threat?
    Mr. Smith. Current escalating threat. But you, obviously, 
having talked to them--the founder back in 2014--I think would 
have some very useful insights.
    Mr. Jerryson. The Buddhist nationalist groups right now in 
Sri Lanka are feeding off of not just themselves but also 
adjoining Buddhist organizations, such as the Ma Ba Tha and the 
969 Movement in Myanmar.
    And so they are beginning to feel more and more emboldened 
of the fact that they're alone--that the West is only concerned 
with Christians and colonial rhetoric, and that they have to 
take matters into their own hands.
    Mr. Smith. Well, we speak out--if you would yield for a 
moment--very aggressively on the Rohingya, which, obviously, 
are in the crosshairs.
    Mr. Jerryson. Yes. Yes, absolutely.
    There was--actually, in September of this past year there 
was a U.N.-sanctioned refugee camp in Sri Lanka for Rohingya 
refugees that were attacked by Buddhists and Buddhist monks 
that were Sri Lankan.
    So this is--the rhetoric of pointing out that Buddhism is 
under threat is becoming more and more, I think, solidified, 
more clear for many people. It's getting more traction.
    The one small silver lining is, again, the fact that 
Gnanasara Thero was arrested and there's rumors that he's going 
to be defrocked. But this is something that, hopefully, we can 
see more of.
    Mr. Smith. Dr. Jerryson--yes.
    Mr. Sifton. I would just add to that. I think there is--
with respect to what Representative Sherman said about the 
administration, there are some allies who are willing to be 
more forceful on some of these issues. They're spread a little 
bit thin. One of them is former Senator Brownback, who is now 
Ambassador-at-Large on these issues.
    Encouraging him to visit the country would probably be to 
the country's benefit in the sense that it would revitalize 
efforts at C Street and in Washington, in general, to really 
address these issues with a little bit more vigor.
    Mr. Smith. I will take that up with him. A great idea.
    Anything else you'd like to add before we conclude?
    Mr. Sifton. I would like to respond to the issue of the 
Human Rights Council, if I may, very briefly.
    There is no doubt that the Human Rights Council in Geneva 
is deeply flawed. But it has also given us things like the U.N. 
Commission of Inquiry on North Korea and the two resolutions 
that pressured Sri Lanka to do everything that they have done, 
as inadequate as it is.
    There was a reform process underway in Geneva. Ambassador 
Haley, instead of working within that process, tried to lead a 
shortcut through the U.N. General Assembly where the U.S. 
lacked requisite political support and where also would have 
opened a Pandora's Box of other amendments by bad actors, 
including Russia and China, that would have ended with a net 
result of a worse Human Rights Council.
    So for all those reasons, we suggest that they not do this, 
and I would submit that if the measure of how flawed a U.N. 
body is is its members have egregious human rights records, 
then what are we to do with the U.N. Security Council? Should 
we withdraw from that as well?
    Mr. Smith. I thank you.
    I would just provide one insight: When the Human Rights 
Commission was established, the predecessor for the Human 
Rights Council--many of us had very, very high hopes that it 
would matriculate into a true, robust human rights organization 
of U.N. member states that really had as close to impeccable 
records as possible.
    I, for one, believe that we should always stay and fight 
from within. But it is so egregiously flawed. The way it 
focuses on Israel is an abomination and when countries like 
China, where torture is absolutely pervasive and all their 
other human rights abuses--I've gone to the Council many times, 
raised issues. Went to the press conference that the Chinese 
held and raised these issues--they just closed down the press 
conference and didn't want to talk any further.
    So, hopefully, withdrawal--if that's what will actually 
happen--will lead to some very robust introspection. I've 
raised issues with Prince Zeid many times. I think he has made 
numerous mistakes.
    I am sure he's well meaning, but numerous mistakes, 
especially as it relates to Israel. I mean, how many votes are 
had in that Council that are all directed at Israel when so 
many--I mean, even on the issue of killing or enabling 
terrorists subsidized by the PLA and paying their families--pay 
to slay is what we call it.
    We recently had legislation on the floor of the House to at 
least ding them on some of the money. I am going to introduce a 
new bill that says we'll hold criminally and civilly liable 
those at the PLA who provide this blood money to terrorists and 
to their families and also hold the position in the PLA 
leadership depending on how many years you spend in prison when 
you commit a terrorist act. I mean, there were a few--and yet, 
does the PLA--I know it's an organization. It's not a de facto 
government, per se. It is a government--that gets away with 
this murder.
    So I thought we should have stayed and fought from within. 
But I am shocked and dismayed how the cast of human rights 
abusers remain dominant at the Human Rights Council. It's not 
much different, if at all, from the Human Rights Commission. So 
the hope that, as a replacement, it would have led to a more 
transparent, open, aggressive, ``This is where human rights are 
really done'' institution didn't happen.
    Mr. Sifton. Well, we'll keep fighting to reform it. We will 
keep fighting, because it needs help and it will reform, 
whether the U.S. is there or not.
    Mr. Smith. Gotcha. Yes, sir.
    Mr. Jerryson. If I can add to this discussion, briefly.
    So as I mentioned before, there's a battle of rhetoric 
taking place in Sri Lanka about the fact that there might be 
Western propaganda taking place, Western interests.
    My concern is the timing of all this. The fact of being 
pulled out of the Human Rights Commission means also the 
Council can also start looking at the United States about 
possible human rights problems that we have here and that could 
be used as fuel for fake news and false information in Sri 
Lanka and disregard what we have to say. So just a concern I 
just want to put out there.
    Mr. Garrett. Mr. Chairman?
    So would you suggest then that if we hadn't pulled out of 
the UNHRC that there wouldn't be any fake news or propaganda?
    Mr. Jerryson. No. No. Not at all.
    Mr. Garrett. So, in other words, we are going to get that 
either way, right?
    I mean, this is almost like, I would argue, giving the fox 
the keys to the proverbial henhouse, and if you wanted to have 
credibility then maybe there should be some standards for 
membership thereon. That's a rhetorical assertion.
    But, again, I have great sympathy for the administration, 
for the chair, for Ranking Member Sherman. There's no right 
answer here.
    Having said that, as it relates to Mr. Sifton's comment to 
the U.N. Security Council, you know, there are those who would 
say you're absolutely correct, right.
    The question is what baby do you throw out with the 
proverbial bathwater. Having said that, if I were to review and 
enumerate the human rights violations of the members of the 
UNHRC just right now, we'd have to book another several hours. 
[Laughter.]
    Right? That's all. I don't disagree with you guys. In fact, 
I admire you and I think you're doing the right thing. But 
there is no panacea here wherein we go, well, if we are a 
member everything will be good and if we are not everything 
will be bad.
    It's frustrating. Thank you.
    Mr. Sifton. One point is that the Human Rights Council 
votes on these resolutions passed by unanimous consent. So 
these egregious human rights actors who have, you know, caused 
our staff huge problems, put us in peril, allowed these 
resolutions to go forward.
    So yes, it's flawed, and yes, there are egregious human 
rights violations.
    Mr. Garrett. But by virtue of participation you essentially 
legitimized those edicts. That's the problem. If you turn and 
walk away from it--you say, we don't recognize the authority of 
this particular entity, right--we've seen this recently as it 
relates to the arbiters of what is and isn't, for example, a 
hate group.
    When you give blanket authority to a subset of individuals 
to determine who is bad and who is good, ultimately, those 
individuals, in a world corrupted and inhabited by fallen human 
beings, would probably tend to err on the side of whatever 
agendas they harbor, right.
    You can know, and I do, that Israel is not perfect without 
agreeing with every assertion that somehow Israel is evil.
    Mr. Smith. I want to thank all of my colleagues. I want to 
thank our very distinguished witnesses for your extraordinarily 
incisive and illuminating testimony. It helps us to do a better 
job on the subcommittee, and we will be in touch with the 
administration on many of the recommendations you have made. So 
thank you so very much.
    The hearing is adjourned.
    [Whereupon, at 3:56 p.m., the committee was adjourned.]

                                     

                                     

                            A P P E N D I X

                              ----------                              


               Material Submitted for the Record
               
               
         [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
	             
               
               
   Material submitted for the record by the Honorable Christopher H. 
 Smith, a Representative in Congress from the State of New Jersey, and 
 chairman, Subcommittee on Africa, Global Health, Global Human Rights, 
                    and International Organizations



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

   Material submitted for the record by the Honorable Christopher H. 
 Smith, a Representative in Congress from the State of New Jersey, and 
 chairman, Subcommittee on Africa, Global Health, Global Human Rights, 
                    and International Organizations


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                          
                                 [all]



</pre></body></html>
